2311 Douglas Street
Omaha, Nebraska 68102-1214

1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850

OCKLE

i E-Mail Address:
Legal Briefs contactanon leteenteh.com
Web Site
www.cocklelegalbriefs.com
No. 19-514
NIKKO A. JENKINS,
Petitioner,
Vv.
STATE OF NEBRASKA,
Respondent,
AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 20th day of November, 2019, send
out from Omaha, NE 2 package(s) containing 3 copies of the MOTION FOR LEAVE TO FILE BRIEF AND BRIEF OF
AMICI CURIAE THE PROMISE OF JUSTICE INITIATIVE, THE CATO INSTITUTE, AND THE RODERICK &
SOLANGE MACARTHUR JUSTICE CENTER IN SUPPORT OF PETITIONER in the above entitled case. All parties
required to be served have been served by Priority Mail. Packages were plainly addressed to the following:

To be filed for:
CLARK M. NEILY II
JAY R. SCHWEIKERT
CATO INSTITUTE
1000 Mass. Ave. N.W.
Washington, DC 20001

G. BEN COHEN

Counsel of Record

THE PROMISE OF JUSTICE
INITIATIVE

1024 Elysian Fields

New Orleans, LA 70117

504-529-5955

bcohen@defendla.org

SEE ATTACHED

AMIR H. ALI

RODERICK & SOLANGE
MACARTHUR JUSTICE
CENTER

777 6th Street NW

Washington, DC 20001

JANET C. HOEFFEL

Catherine D. Pierson
Professor of Law

TULANE LAW SCHOOL,

6329 Freret Street

New Orleans, LA 70118

Counsel for Amici Curiae

Subscribed and sworn to before me this 20th day of November, 2019.
1am duly authorized under the laws of the State of Nebraska to administer oaths,

PATRICIA BILLOTTE
General Notary

State of Nebraska

My Commission Expires Nov 24, 2020

 

 

Notary Public Affiant 38978
 

 

Attorneys for Petitioner

David D. Cole American Civil Liberties Union Foundation
Counsel of Record 915 15th Street, NW
Washington, DC 20005

dcole@aclu.org

Party name: Nikko Jenkins

212-549-2611

 

Attorneys for Respondent

James D. Smith Nebraska Department of Justice
Counsel of Record 2115 State Capitol
Lincoin, NE 68509-8920

james.smith@nebraska.gov

Party name: State of Nebraska

402-471-2686

 

 
